OFFICE OF INSPECTOR GENERAL

AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
FISCAL YEAR 2014
COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-MCC-14-008-P
SEPTEMBER 12, 2014




WASHINGTON, DC
This is a summary of our report on the Audit of the Millennium Challenge Corporation’s Fiscal
Year 2014 Compliance With the Federal Information Security Management Act of 2002 (Report
No. A-MCC-14-008-P). The Federal Information Security Management Act of 2002 (FISMA)
requires agencies to develop, document, and implement an agency-wide information security
program to protect their information and information systems, including those provided or
managed by another agency, contractor, or other source. The act also requires agencies to
have an annual assessment of their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of CliftonLarsonAllen LLP to conduct the audit. Clifton was required to conduct
the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether the Millennium Challenge Corporation (MCC) implemented selected
minimum security controls for selected information systems in support of FISMA.

To answer the audit objective, Clifton assessed whether MCC implemented selected
management, technical, and operational controls outlined in National Institute of Standards and
Technology Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations, Revision 3. * Clifton performed audit fieldwork at MCC’s
headquarters in Washington, D.C., from March 12 through June 27, 2014.

The audit concluded that MCC implemented 104 of 116 selected security controls for selected
information systems in support of FISMA. For example, MCC complied with requirements by
doing the following:

•   Categorized its information systems and the information processed, stored, or transmitted in
    accordance with federal guidelines and designated a senior-level official to review and
    approve the security categorizations.

•   Implemented an effective incident handling and response program.

•   Maintained an adequate and effective specialized training program for its employees
    requiring role-based training.

•   Implemented an effective identification and authentication program.

•   Established appropriate segregation of duties in MCCNet, a general support system through
    which all MCC systems interact and communicate.

Although MCC generally had policies for its information security program, Clifton found that
MCC’s implementation of those policies was not fully effective to preserve the confidentiality,
integrity, and availability of the Agency’s information and information systems, potentially
exposing them to unauthorized access, use, disclosure, disruption, modification, and
destruction. The audit identified areas in the information security program that MCC could
improve. Accordingly, OIG made seven recommendations to help MCC strengthen its
information security program. After reviewing Clifton’s evaluation of management comments
and the documentation provided by MCC, we acknowledge management decisions on all
recommendations and final action on Recommendation 7.
*
 National Institute of Standards and Technology Special Publication 800-53, Security and Privacy
Controls for Federal Information Systems and Organizations, Revision 4, took effect during the audit.
Because it did not significantly change the findings, Clifton used Revision 4.

                                                                                                   1
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel.: 202-712-1150
            Fax: 202-216-3047
           http://oig. usaid.gov
